No. 21-

In the Supreme Court of the United States
JONAS DAVID NELSON, PETITIONER,
v.
STATE OF MINNESOTA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,892 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on
February 18, 2021.

/s Andrew T. Tutt_____
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
February 18, 2021

